No. _ _

IN THE SUPREME COURT OF THE UNITED STATES
B&B HARDWARE, INC.,
Applicant,
v.

HARGIS INDUSTRIES, INC.,
Respondent.

APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE A
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT

RULE 29.6 STATEMENT
Applicant has no parent company, and no publicly traded company owns 10% or
more of its stock.

To the Honorable Neil M. Gorsuch, Circuit Justice for the Eighth Circuit:
In accordance with Rule 13.5 of the Rules of this Court, B&B Hardware, Inc.
respectfully requests that the time within which to file a petition for a writ of
certiorari to review the judgment of the United States Court of Appeals for the
Eighth Circuit be extended by 57 days, to and including July 3, 2019.
The Eighth Circuit issued its opinion on December 21, 2018 (Appendix 1).
The Eighth Circuit denied rehearing on February 6, 2019 (Appendix 2). Without an
extension, a petition for a writ of certiorari will be due May 7, 2017. The Court's
jurisdiction would be invoked under 28 U.S.C. ยง 1254(1).
1.

This action for trademark infringement was previously before this

Court on the merits. This Court set aside the Eighth Circuit's refusal to apply issue
preclusion to a decision of the Trademark Trial and Appeal Board (TTAB). B&B

Hardware, Inc. v. Hargis Industries, Inc., 135 S. Ct. 1293 (2015). In accordance
with this Court's opinion, the Eighth Circuit remanded for a new trial on trademark
infringement. B&B Hardware, Inc. v. Hargis Industries, Inc., 800 F.3d 427 (2015).
The appeal under review arises from the judgment entered after that remand.
As this Court observed, "the twists and turns in [this] controversy are
labyrinthine,'' and "[t]he full story could fill a long, unhappy book." 135 S. Ct. at
1301. At this point, the pertinent facts are as follows: A jury found that Hargis's
use of the mark SEALTITE infringed B&B's mark SEALTIGHT, but the decision
whether to award B&B disgorgement of Hargis's profits was up to the district court.
Op. 5. The district court awarded no relief, invoking collateral estoppel based on a
2000 jury verdict against B&B. Ibid. The Eighth Circuit had previously explained
3

that the 2000 verdict did not have preclusive effect on B&B's ability to enforce its
trademark once the mark became inconstestable in 2006.

See 15 U.S.C. ยง 1065;

B&B Hardware, Inc. v. Hargis Industries, Inc., 569 F.3d 383, 389-90 (8th Cir. 2009).
The district court concluded (relying on a special interrogatory submitted to the
jury) that B&B had obtained incontestable status for its trademark fraudulently,
because it did not disclose the adverse jury verdict from 2000 to the U.S. Patent and
Trademark Office. Op. 5. The court therefore applied preclusion notwithstanding
the Eighth Circuit's prior ruling. B&B filed a Rule 59 motion asking the district
court to order a new trial or to alter or amend the judgment, which the district court
denied.
2.

The Eighth Circuit affirmed. The court first concluded that its review

was limited to "plain error" because B&B had not filed a Rule 50(b) motion for
judgment as a matter of law on Hargis's defense of fraud; it did not mention the
Rule 59 motion. Op. 6. It then held that the jury was entitled to rule against B&B
on that defense, notwithstanding B&B's evidence that it had relied on the advice of
counsel and lacked any fraudulent intent, Op. 7-8, because "the jury was entitled to
disbelieve [that testimony] if it chose."

Op. 8.

Finally, the court held that the

finding of fraud justified disregarding the incontestability of B&B's trademark and
applying preclusion as if the mark had never become incontestable. Op. 9-12. The
court did not reach any of B&B' s other challenges to the district court's decision
because of its preclusion ruling.

4

3.

B&B is considering filing a petition for certiorari. The court of appeals'

decision appears to conflict with the precedents of this Court and other courts.
First, a Rule 59 motion is a proper vehicle to ask the trial court to decide whether a
jury's verdict is against the weight of the evidence. See, e.g., Weisgram v. Marley

Co., 528 U.S. 440, 453 n.9 (2000) (citing Montgomery Ward & Co. v. Duncan, 311
U.S. 243, 251 (1940)). And this Court has held that Rule 50(b) imposes no bar to
asking for new-trial relief on appeal "when [the appellant] has complied with the
Rule's filing requirements by requesting that particular relief below."

Unitherm

Food Sys., Inc. v. Swift-Eckrich, Inc., 546 U.S. 394, 402 (2006); see also id. at 403404 (explaining this Court's cases in which parties "secured a new trial" on appeal
"because in each of those cases the appellants moved for a new trial postverdict in
the District Court"). That rule is readily applied in other circuits. See, e.g., CFE

Racing Prods., Inc. v. BMF Wheels, Inc., 793 F.3d 571, 582-84 (6th Cir. 2015). Yet
the Eighth Circuit nonetheless applied only plain-error review.
Second, while reversing the Eighth Circuit's application of the plain-error
standard of review would be enough to require that court to reconsider, the Eighth
Circuit's underlying review of the fraud question appears to present a conflict as
well.

B&B's witness testified that his submission to the PTO was based on the

advice of counsel, and that the PTO was aware of the jury verdict in any event. The
court's only rationale for why the jury could find fraud by clear and convincing

evidence was the speculative possibility that the jury disbelieved B&B's witness.
Op. 8. That appears to conflict with precedent of the Federal Circuit-the court

5

with nationwide, though not exclusive, jurisdiction to review decisions of the TTAB,
15 U.S.C. ยง 1071(a), including on questions of fraud on the agency. That court has
emphasized that intent to deceive is an indispensable element of fraud in the
trademark context; that "[t]here is no fraud if a false misrepresentation is
occasioned by an honest misunderstanding or inadvertence without a willful intent
to deceive"; and that unless the proponent of a fraud argument "can point to
evidence to support an inference of deceptive intent, it has failed to satisfy the clear
and convincing evidence standard required to establish a fraud claim." In re Bose

Corp., 580 F.3d 1240, 1246 (Fed. Cir. 2009).
4.

B&B has not yet obtained counsel to file a petition for certiorari. The

undersigned counsel previously represented B&B in this Court-although not in the
remand proceedings in the district court or in the most recent Eighth Circuit
appeal-and has recently been retained to file this extension application. B&B has
not yet secured counsel to assess the legal issues in the case with a view to
preparing and filing a petition for certiorari. The requested extension is warranted
to permit B&B, a small company with limited resources, to obtain counsel willing to
represent it in the Supreme Court, and to permit counsel to familiarize themselves
with the exceptionally long history of this litigation and the legal issues to be
presented.
For the foregoing reasons, this Court should extend the time for the filing of a
petition for a writ of certiorari by 57 days, to and including July 3, 2019.

6

Respectfully submitted.

wlL___ ~
William M. Jay
Counsel of Record
Goodwin Procter LLP
901 New York Ave., N.W.
Washington, DC 20001
wjay@goodwinlaw.com
202-346-4000

Counsel for Applicant
April 26, 2019

